NO. 20-72
JANET L. HIMSEL, MARTIN RICHARD HIMSEL,
ROBERT J. LANNON, AND SUSAN M. LANNON,
Petitioners,
v.
4/9 LIVESTOCK, LLC, CO-ALLIANCE. LLP, SAMUEL T. HIMSEL,
CORY M. HIMSEL, CLINTON S. HIMSEL, AND STATE OF INDIANA,
Respondents.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29 and Order dated April 15, 2020, I certify
that the BRIEF OF INDIANA FARMERS UNION, FAMILY FARM ACTION ALLIANCE,
FOOD & WATER WATCH, AMERICAN GRASSFED ASSOCIATION, FARM AID, HOOSIER
ORGANIC MARKETING EDUCATION, DAKOTA RURAL ACTION, IDAHO ORGANIZATION
OF RESOURCE COUNCILS, IOWA CITIZENS FOR COMMUNITY IMPROVEMENT, AND
MISSOURI RURAL CRISIS CENTER AS AMICI CURIAE IN SUPPORT OF PETITIONERS
was served via electronic mail on all parties required:
Counsel of Record for Petitioners

Counsel for Respondents

Katherine A. Meyer
HARVARD ANIMAL LAW & POLICY CLINIC
1607 Massachusetts Avenue
Cambridge, MA 02138
kmeyer@law.harvard.edu

Christopher J. Braun
Jonathan P. Emenhiser
Josh S. Tatum
PLEWS, SHADLEY, RACHER & BRAUN LLP
1346 N. Delaware Street
Indianapolis, IN 46202
cbraun@psrb.com
jernenhiser@psrb.com
jtaturn@psrb.com

Additional Counsel for Respondent
State of Indiana

Additional Counsel for Respondent
Samuel T. Himsel

Aaron Craft
Office of the Indiana Attorney General
Indiana Government Center South
302 W. Washington Street, 5th Floor
Indianapolis, IN 46204
aaron.craft@atg.in.gov

Kyle A. Lansberry
Brandon W. Ehrie
LEWIS WAGNER LLP
501 Indiana Avenue, Suite 200
Indianapolis, IN 46202
klansberry@lewiswagner.com
behrie@lewiswagner.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 21, 2020.
/s/Jessica L. Culpepper
Jessica L. Culpepper
Counsel of Record for Amici

